No. 20-8063

In the Supreme Court of the United States
DARIUS THERIOT, PETITIONER
V.

BOB VASHAW, WARDEN
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
CERTIFICATE OF COMPLIANCE

Attorney for Respondent Bob Vashaw, hereby certifies that the foregoing Brief
in Opposition complies with the type-volume limitation of Supreme Court Rule
33.1(g)((ii), in that the word-processing system used to prepare the brief indicates
that the brief contains 7,065 words.
Respectfully submitted,
Dana Nessel
Michigan Attorney General
Fadwa A. Hammoud
Solicitor General
Counsel of Record
P.O. Box 30212
Lansing, Michigan 48909
HammoudF1@michigan.gov
(517) 335-7628
Scott Shimkus
Assistant Attorney General
Criminal Trials and Appeals Division
Attorneys for Respondent

